March 2008
Report No. AUD-08-009


Implementation of FDIC’s Supervisory
Guidance for Nontraditional Mortgage
Products
                                                Report No. AUD-08-009                                                     March 2008

                                                Implementation of FDIC’s Supervisory
                                                Guidance for Nontraditional Mortgage
   Federal Deposit Insurance Corporation        Products
Why We Did The Audit
                                                Audit Results
The audit objectives were to assess (1) the
implementation of the FDIC’s Supervisory        The FDIC’s implementation of the Supervisory Guidance has provided a systematic
Guidance for Nontraditional Mortgage            process for the identification of FDIC-supervised institutions with significant
Products (Supervisory Guidance) and             involvement in NTM product activities (see the figure below) and the determination of
(2) examination coverage of the loan terms      supervisory strategies for those institutions. Further, the FDIC’s examination
and underwriting standards set forth in the     coverage of institutions with NTM product activities has addressed the loan terms and
Interagency Guidance on Nontraditional          underwriting standards set forth in the NTM Guidance. These standards also provide
Mortgage Product Risks (NTM Guidance).          certain protections for consumers. We concluded that the FDIC’s guidance and
                                                examination coverage have provided a means to identify and mitigate the risks to both
                                                institutions and consumers associated with NTM product activities.
Background
                                                Through its identification process, the FDIC determined that 30 of approximately
The FDIC’s Division of Supervision and          5,250 FDIC-supervised institutions had significant involvement in NTM product
Consumer Protection (DSC) is responsible        activities. To determine the scope and magnitude of NTM product activities at these
for performing risk management and              30 institutions, the FDIC conducted on-site examinations or visitations. On a
compliance examinations of FDIC-                continuing basis, the FDIC plans to identify and assess NTM product activities for all
supervised institutions. The FDIC has           FDIC-supervised institutions through the examination process. These actions have
provided its examiners the Supervisory          provided a means for the FDIC to address the risks posed by NTM products to both
Guidance and NTM Guidance to assist in          institutions and consumers.
assessing institutions’ NTM product
activities, including policies and procedures   For our sample of 15 of the 30 FDIC-supervised institutions identified with significant
and risk management processes,                  NTM product activities, DSC had conducted on-site risk management examinations
recognizing that a number of different but      and visitations that covered the loan terms and underwriting standards set forth in the
prudent practices may exist.                    NTM Guidance. For another sample of seven institutions, whose NTM product
                                                activities fell under the thresholds DSC defined as significant, examiners had
NTM products generally include mortgage         considered the extent of NTM product activities in planning risk management
loans with interest-only, payment-option        examinations. Also, for those seven institutions, we determined that the examiners
adjustable rates, and/or negative               had assessed selected activities and controls related to NTM products such as
amortization terms. Borrowers                   introductory rates, simultaneous second liens, and subprime borrowers. The FDIC’s
increasingly turned to NTMs to purchase         examinations and visitations have assisted in identifying and mitigating the risks to
homes in 2001-2005, when mortgage rates         institutions and consumers associated with NTM products in accordance with the
remained historically low and home prices       NTM Guidance. As a result of these positive findings, we do not make any
appreciated rapidly in many markets.            recommendations in the report.

Although NTM products have been
promoted as a way for consumers to make            Thresholds Established by DSC for Significant NTM Product Activities
lower monthly payments in the near term,           as a Percentage of Tier 1 Capital
there is significant risk that consumers may                 Loan Type               Loan Originations  Loans on Book
not understand that these loan products are
structured in a manner that may cause                Interest-Only                             250%                    100%
future payment obligations to increase               Payment-Option Adjustable
significantly. Also, some NTM products                                                         100%                    25%
                                                     Rate Mortgages
have principal loan balances that increase
due to negative amortization. This is               Subprime                             100%                 25%
particularly problematic when the value of         Source: DSC Senior Deputy Director memorandum dated August 8, 2007.
the underlying collateral declines, making it
difficult to sell or refinance the property.
                                                Management Response
The FDIC expects institutions to effectively
assess and manage the risks associated with     DSC provided a written response, stating that the FDIC is focusing its attention on
NTM product activities and to ensure that       significant risks from economic conditions, the fallout from recent unsustainable
new and relatively untested products are        mortgage lending practices, and disruptions in the credit and capital markets to ensure
being appropriately underwritten, managed,      that FDIC-supervised institutions respond appropriately to maintain their safety and
and marketed.                                   soundness.


To view the full report, go to www.fdicig.gov/2008reports.asp
Contents                                                                            Page

BACKGROUND                                                                            1

 FDIC Guidance Related to NTM Products                                               2

RESULTS OF AUDIT                                                                      4

SUPERVISORY PROCESS FOR IDENTIFYING FDIC-SUPERVISED                                   5
INSTITUTIONS WITH SIGNIFICANT INVOLVEMENT IN NTM PRODUCT
ACTIVITIES
  Identification of High-Risk Mortgage Products                                       5
  Identification of FDIC-Supervised Institutions Involved in                          5
   NTM Product Activities
  Monitoring of FDIC-Supervised Institutions with Significant Involvement in          8
   NTM Product Activities

SUPERVISORY STRATEGIES FOR FDIC-SUPERVISED INSTITUTIONS                               9
INVOLVED IN NTM PRODUCT ACTIVITIES

ON-SITE COVERAGE OF NTM GUIDANCE ON LOAN TERMS AND                                   10
UNDERWRITING STANDARDS
 NTM and Supervisory Guidance Related to Loan Terms and                              10
  Underwriting Standards
 Examination Coverage for Institutions with Significant Involvement in NTM           11
  Product Activities
 Examination Coverage for Institutions Involved in NTM Product                       12
 Activities That Fell Below DSC Thresholds for Significant Involvement

CORPORATION COMMENTS                                                                 13

APPENDICES
  1. OBJECTIVES, SCOPE, AND METHODOLOGY                                              14
  2. FEATURES AND TYPES OF NTM PRODUCTS                                              20
  3. COVERAGE OF NTM GUIDANCE IN 2007 DSC EXAMINATIONS AND                           23
     VISITATIONS
  4. CORPORATION COMMENTS                                                            24

FIGURE
  NTMs as a Percentage of Total Mortgages                                             2

TABLES
  1. Thresholds Established for Significant Involvement in NTM Product Activities     7
     as a Percentage of Tier 1 Capital
  2. NTM Products for the 30 Institutions                                             7
  3. Institutions Within 10 Percent of Threshold Limits                              8
  4. Results of On-site Reviews of the 30 Institutions                              10
  5. Examinations or Visitations that Addressed NTM Guidance                        11
    Federal Deposit Insurance Corporation                                                              Office of Audits
    3501 Fairfax Drive, Arlington, VA 22226                                               Office of Inspector General


    DATE:                                     March 31, 2008

    MEMORANDUM TO:                            Sandra L. Thompson, Director
                                              Division of Supervision and Consumer Protection


                                              /Signed/
    FROM:                                     Russell A. Rau
                                              Assistant Inspector General for Audits

    SUBJECT:                                  Implementation of FDIC’s Supervisory Guidance
                                              for Nontraditional Mortgage Products
                                              (Report No. AUD-08-009)


    This report presents the results of our audit of the FDIC’s supervision and examination of
    nontraditional mortgage (NTM) product activities at FDIC-supervised institutions. The
    audit objectives were to assess (1) the implementation of the FDIC’s Supervisory
    Guidance for Nontraditional Mortgage Products (Supervisory Guidance) and
    (2) examination coverage of the loan terms and underwriting standards set forth in the
    Interagency Guidance on Nontraditional Mortgage Product Risks (NTM Guidance).

    We conducted this performance audit in accordance with generally accepted government
    auditing standards. Appendix 1 of this report discusses our audit objectives, scope, and
    methodology in detail.


BACKGROUND

    NTM products, sometimes called alternative mortgages or exotic mortgages, are
    generally defined to include products such as interest-only and hybrid adjustable rate
    mortgage (ARM) loans, payment-option ARMs, interest-only fixed rate mortgages, and
    extended maturity mortgage loans (terms beyond 30 years).1 The potential advantages of
    NTMs in terms of lower payments and higher principal balances can be significant
    depending on the expected path of interest rates and home price appreciation. However,
    significant disadvantages can arise if interest rates and home price appreciation take
    unexpected turns that could be particularly challenging for borrowers with weak credit.
    NTM products have been offered to a wider spectrum of borrowers, who may not qualify
    for a traditional fixed-rate or other ARM loan and who may not fully understand that
    NTM products may cause future payment obligations to significantly increase.




    1
        Appendix 2 of this report provides details on the features and types of NTM products.
      NTM product lending became popular in areas of the country that experienced strong
      home price appreciation because the products allowed borrowers to lower their initial
      monthly payments and borrow larger amounts. Borrowers increasingly turned to NTMs
      to purchase homes in 2001-2005 when mortgage rates remained historically low and
      home prices appreciated rapidly in many markets. In many cases, borrowers intended to
      refinance these loans or sell the houses before interest rates on the mortgages adjusted.

      The number of NTMs surged between 2004 and 2006—up from 12.5 percent to 32.1
      percent—and accounted for a substantial one-third share of total mortgage originations
      through the first 9 months of 2007 as depicted in the figure below.


      NTMs as a Percentage of Total Mortgages
                     40
                     30
           Percent   20
                     10                                                                                   NTMs

                      0
                                 2004                 2006                  2007*
                                                      Year


      Source: FDIC data.
      * Includes only the first 9 months of 2007.


      An additional risk became apparent as subprime borrowers2 increasingly turned to NTMs
      to finance home purchases. About three-quarters of the subprime mortgages securitized
      in 2004 and 2005 were structured as NTMs, such as hybrid ARMs. Further, these NTMs
      accounted for over half of the subprime loans made in 2006. About 1.7 million subprime
      hybrid loans, with a value of $367 billion, are scheduled to reset during 2008 and 2009,
      according to FDIC estimates.


FDIC Guidance Related to NTM Products

      The FDIC expects institutions to effectively assess and manage the risks associated with
      NTM products and to ensure that new and relatively untested products are being
      appropriately underwritten, managed, and marketed. The FDIC, working individually
      and together with other banking agencies, has issued guidance to assist examiners and
      supervisory staff in scrutinizing institutions’ NTM lending programs, including policies
      and procedures and risk management processes, recognizing that a number of different
      but prudent practices may exist.

      2
        Subprime borrowers typically have weakened credit histories that may include a combination of payment
      delinquencies, charge-offs, judgments, and bankruptcies.


                                                         2
On October 4, 2006, the federal financial institution regulatory agencies3 issued final
guidance4 entitled, Interagency Guidance on Nontraditional Mortgage Product Risks, to
clarify how institutions can offer NTM products in a safe and sound manner and in a way
that clearly discloses the risks that borrowers may assume. The NTM Guidance provides
an overview of the loan underwriting standards, portfolio and risk management practices,
and consumer protection issues that should be reviewed during the safety and soundness
and compliance examinations of institutions that offer NTM products or purchase them
through subsidiaries or third parties. The Corporation forwarded this guidance to FDIC-
supervised institutions on October 5, 2006.5

The NTM Guidance stresses that institutions should:

        •    assess a borrower’s ability to repay the loan,
        •    recognize that certain NTM loans warrant strong risk management standards
             as well as appropriate capital and loan loss reserves, and
        •    ensure that borrowers have sufficient information to clearly understand loan
             terms and associated risks prior to making a product or payment choice.

In particular, the guidance addresses financial institution underwriting standards to
mitigate risks associated with negative amortization, reduced documentation,
simultaneous second liens, and risk layering features (for example, combining reduced
documentation or simultaneous second liens with an NTM loan).

The FDIC’s Division of Supervision and Consumer Protection (DSC) is responsible for
performing risk management and compliance examinations for FDIC-supervised
institutions. On March 14, 2007, DSC issued the Supervisory Guidance6 to provide DSC
Regional Directors guidance on contacting FDIC-supervised institutions to ascertain their
involvement with NTM and subprime mortgage products and to provide additional
examiner guidance for supervising state nonmember institutions involved in NTM
product activities. The Supervisory Guidance supplements the NTM Guidance with
specific requirements for identifying and assessing the origination, purchase, sale, and
servicing of NTM products by FDIC-supervised institutions and taking additional
supervisory action where warranted.




3
  The FDIC, Board of Governors of the Federal Reserve System, Office of the Comptroller of the Currency,
Office of Thrift Supervision, and National Credit Union Administration.
4
  Federal Register Vol. 71, No. 192, Wednesday, October 4, 2006.
5
  Financial Institution Letter (FIL) 89-2006.
6
  DSC Transmittal No. 2007-008.


                                                   3
RESULTS OF AUDIT

    DSC’s implementation of the Supervisory Guidance has provided a systematic process
    for the identification of FDIC-supervised institutions with significant involvement in
    NTM product activities and the determination of supervisory strategies for those
    institutions. Further, the FDIC’s examination coverage of institutions with NTM product
    activities has addressed the loan terms and underwriting standards set forth in the NTM
    Guidance. These standards also provide certain protections for consumers. We
    concluded that the FDIC’s guidance and examination coverage have provided a means to
    identify and mitigate the risks associated with NTM product activities to both institutions
    and consumers (Supervisory Process for Identifying FDIC-Supervised Institutions
    with Significant Involvement in NTM Product Activities).

    Through its identification process, the FDIC determined that 30 of approximately 5,250
    FDIC-supervised institutions had significant involvement in NTM product activities.7 To
    determine the scope and magnitude of NTM product activities by these 30 institutions,
    the FDIC conducted on-site examinations or visitations. On a continuing basis, the FDIC
    plans to identify and assess NTM product activities for all FDIC-supervised institutions
    through the examination process. These actions have provided a means to address the
    risks posed by NTM products to both the institutions and consumers (Supervisory
    Strategies for FDIC-Supervised Institutions Involved in NTM Product Activities).

    For our sample of 15 of the 30 FDIC-supervised institutions identified with significant
    NTM product activities, we found that DSC had conducted on-site risk management
    examinations and visitations that covered the loan terms and underwriting standards set
    forth in the NTM Guidance. For another sample of seven institutions, whose NTM
    product activities fell under the thresholds defined as significant, DSC examiners had
    considered the extent of NTM product activities in planning risk management
    examinations. Also, for these institutions, we determined that the examiners had assessed
    selected activities and controls related to NTM products such as introductory rates,
    simultaneous second liens, and subprime borrowers. The examinations and visitations
    have assisted in identifying and mitigating the risks associated with NTM products to
    both institutions and consumers (On-Site Coverage of NTM Guidance on Loan Terms
    and Underwriting Standards).




    7
     Significant involvement in NTM activities was determined by the dollar volume of non-traditional or
    subprime mortgages either originated or on-book as a percentage of Tier 1 Capital. See Table 1 on page 7
    for more details.


                                                        4
SUPERVISORY PROCESS FOR IDENTIFYING FDIC-SUPERVISED
INSTITUTIONS WITH SIGNIFICANT INVOLVEMENT IN NTM PRODUCT
ACTIVITIES

      DSC developed a process to identify the FDIC-supervised institutions with significant
      involvement in NTM product activities, including those situations where subprime
      mortgage lending is significant relative to capital. The process involved identifying the
      types of NTM products that pose significant risk to consumers, identifying institutions
      that engage in those types of NTM product activities, and ongoing monitoring of the
      institutions’ NTM lending activities. Through this approach, DSC has provided a
      systematic means to identify and mitigate the risks associated with these products from
      both an institution and consumer perspective.


Identification of High-Risk Mortgage Products

      The Supervisory Guidance details the FDIC’s approach for identifying and monitoring
      FDIC-supervised institutions involved in NTM product activities. According to DSC, not
      all NTMs are high-risk; however, certain loan characteristics can make them higher-risk
      loans for borrowers and institutions, such as payment options that may include teaser
      rates, low down payments, simultaneous second liens, interest-only periods, high-cost
      loans, and negative amortization. DSC specifically targeted payment option ARMs,
      interest-only, and subprime NTM products for review because they typically contain one
      or more of these high-risk characteristics. In addition, DSC decided to review subsidiary
      and affiliate loan origination activity and the risks associated with recourse and put-back
      agreements.8


Identification of FDIC-Supervised Institutions Involved in NTM Product Activities

      Due to a lack of available off-site data related to NTM lending,9 DSC developed a
      supervisory approach to identify FDIC-supervised institutions involved in NTM product
      activities. As described in the March 2007 Supervisory Guidance, DSC conducted a one-
      time targeted review to identify institutions involved in NTM product activities. As part
      of the one-time review, the regional offices gathered information related to NTM and
      subprime mortgage products. DSC headquarters compiled this regional data to identify
      (1) FDIC-supervised institutions involved in NTM product activities and (2) those
      institutions with significant involvement in NTM lending activities based on the volume
      of NTM products (originations and on book) as a percentage of Tier 1 Capital.

      8
        Recourse and put-back agreements, also known as early payment default clauses, obligate the seller to
      repurchase all loans that default or become delinquent within a specified period of time from the sale date.
      9
        The FDIC collects Reports of Condition and Income data (Call Reports) from insured institutions on a
      quarterly basis. The Call Reports have since been revised to capture NTM data. The revisions were
      documented in two FDIC Financial Institutional Letters (FIL): FIL-21-2007, Revisions to Regulatory
      Reports Filed by Banks and Savings Association, dated March 2, 2007; and FIL-13-2008, Revisions to the
      Consolidated Reports of Condition and Income for 2008, dated February 20, 2008.


                                                            5
On August 8, 2007, DSC issued additional reporting requirements to the regional offices,
broadening the focus of the Supervisory Guidance, to include coverage of liquidity
concerns that had affected the mortgage-backed securities market. Specifically, the
instructions focused regional efforts on four areas: originations of NTM and subprime
mortgage products, institutions affiliated with a top 40 mortgage originator, exposure to
mortgage-backed securities, and exposure at large institutions.10

To identify institutions involved in NTM product activities, DSC used September 30,
2006 Call Report data to identify an initial list of institutions that included: (1) the top
100 ranking institutions with 1-4 family residential loans on book, (2) institutions with
any sales volume of closed-end 1-4 family residential loans, and (3) institutions with
sales and securitizations of 1-4 family loans where the institution serviced or sold the
loans with recourse. The resulting list of 349 FDIC-supervised institutions identified by
DSC represented 60 percent of the 1-4 family mortgage loans originated by FDIC-
supervised institutions as of September 30, 2006. Regional office staff then obtained the
following information from each of these institutions:

     ¾ the amount of interest-only, payment-option, and subprime mortgage loans
       originated in 2004, 2005, and 2006 and the balance of interest-only, payment-
       option, and subprime mortgage loans on the institution’s balance sheet as of year-
       end 2004, 2005, and 2006;

     ¾ the volume of NTM and subprime mortgage loans sold into the secondary market
       and the volume of mortgage servicing rights retained; and

     ¾ the average FICO scores11 of the institution’s subprime residential mortgage
       loans.

Using this information, DSC then developed the thresholds shown in Table 1, on the next
page, to identify which of the 349 FDIC-supervised institutions had significant
involvement in NTM product activities (including subprime lending activities).

DSC established the thresholds, as a percentage of Tier 1 Capital, based on the different
levels of risk of the products and the “natural breaks” that occurred in the data. DSC
stated that the use of “natural breaks” to identify cut-off points was reasonable,
considering the risk posed by the activity and the fact that the institutions fell
significantly above or below the thresholds for significant involvement in NTM product
activities. Institutions that met or exceeded the threshold cut-offs were defined as
institutions with significant involvement in NTM product activities.




10
   A large institution is defined as a financial institution with consolidated banking assets that exceed
$10 billion.
11
   A FICO score, developed by Fair Isaac and Company, is a method of determining the likelihood that
credit users will pay their bills.


                                                      6
Table 1: Thresholds Established for Significant Involvement in NTM Product
           Activities as a Percentage of Tier 1 Capital
          Loan Type                Loan Originations          Loans on Book
 Interest Only                            250%                    100%
 Payment Option ARMs                      100%                    25%
 Subprime                                 100%                    25%
 Source: DSC Senior Deputy Director memorandum dated August 8, 2007.


Of the 349 institutions, DSC identified 40 institutions with significant NTM product
activities that were targeted for closer review. Subsequently, DSC excluded 10 of the 40
institutions because: 3 institutions were either acquired by institutions supervised by the
Office of Thrift Supervision or were no longer active; 3 institutions had submitted
incorrect data and did not actually engage in NTM product activities; 3 institutions had
low levels of NTM product activities; and 1 institution was a subprime credit card
institution. The remaining 30 institutions either had originated or had on book the types
of NTM products noted in Table 2.


 Table 2: NTM Products for the 30 Institutions
             Type(s) of NTM Loans                             No. of Institutions
  Payment Option                                                        1
  Interest Only                                                       10
  Subprime                                                            13
  Interest Only and Subprime                                            3
  Payment Option, Interest Only, and Subprime                           3
  Total                                                                30
 Source: DSC management and supporting documents.


For the purpose of our audit, we reviewed each of the thresholds to determine if there was
a “natural break” that distinguished the 30 institutions DSC identified with significant
NTM product activities. We applied the thresholds to each of the three types of loans
(payment option, interest only, and subprime) for both loan originations and loans on
book. Based on our review, we determined that DSC had consistently applied the
thresholds in identifying the initial 40 institutions for on-site review. We also found that
7 of the 349 institutions fell just under the thresholds defined for significant involvement
in NTM product activities. Specifically, 2 institutions’ NTM product activities were 10
percent or less under the thresholds for interest-only loans, and 5 institutions were 10
percent or less under the thresholds for subprime loans (see details in Table 3 on the next
page).




                                              7
          Table 3: Institutions Within 10 Percent of Threshold Limits
                                                                    Institution
              Institution              NTM Product                                    DSC Threshold
                                                                     Exposure
           Institution 1       Interest Only - On Book                 98%                  100%
           Institution 2       Interest Only - On Book                 98%                  100%
           Institution 3       Subprime - Originations                 95%                  100%
           Institution 4       Subprime - Originations                 91%                  100%
           Institution 5       Subprime - On Book                      24%                   25%
           Institution 6       Subprime - On Book                      23%                   25%
           Institution 7       Subprime - On Book                      23%                   25%
          Source: OIG analysis of data for the 349 FDIC-supervised institutions identified by DSC as
          involved in NTM product activities.


     For the remaining 302 institutions, we determined that the NTM product activities fell
     well below the DSC thresholds.

     During our discussions with DSC regional office staff, we found that one of the regional
     offices identified four additional institutions for monitoring, even though the institutions
     did not meet the DSC thresholds for significant involvement in NTM product activities.
     This regional office decided to apply reduced thresholds to capture those institutions
     warranting additional attention.

     We also found that another regional office plans to continue to collect annually the
     information initially requested by DSC. Some of the information will be collected by
     examiners during the normal examination cycle. For institutions with no scheduled
     examination in a specific year, the Relationship Manager12 will be responsible for
     collecting the information that year. As a result of this continuous monitoring effort, the
     regional office identified an additional institution that did not meet the thresholds at the
     time of the initial request but now qualifies for monitoring.


Monitoring of FDIC-Supervised Institutions with Significant Involvement in NTM
Product Activities

     DSC’s initial findings regarding the 349 FDIC-supervised institutions were reported in
     the first quarter 2007 monitoring report,13 dated July 31, 2007, as follows:

             Overall, 40 institutions (11.5 percent of the institutions surveyed) were identified
             as a higher supervisory concern based on exposure related to the dollar volume of
             interest only, payment option ARMs, and subprime mortgages. Nine of these 40
             institutions are reported in the first quarter 2007 monitoring report.

     12
        A Relationship Manager is designated for every FDIC-supervised institution to serve as an FDIC point of
     contact.
     13
        DSC sources of information for the monitoring report include recent safety and soundness examinations
     conducted by the FDIC and other banking agencies, as well as direct contact with the other banking
     agencies and institution management.


                                                         8
    The monitoring report is a DSC internal reporting mechanism for identifying those
    institutions involved in activities that inherently pose an increased risk to the institution
    and, thereby, to the Deposit Insurance Fund. A significant component of the monitoring
    report is information on those financial institutions involved in subprime lending. In the
    second quarter 2007 monitoring report, DSC concluded that asset quality at most of the
    institutions with significant involvement in NTM product activities was generally
    satisfactory, portfolio management practices were generally sound, underwriting
    practices continued to tighten, and most of the institutions were generally adhering to the
    NTM Guidance.

    According to DSC, the established NTM product activity thresholds will serve as a
    continuing basis for identifying institutions that should be included in the monitoring
    report for ongoing monitoring purposes. If institutions later drop below the thresholds,
    the institutions will remain in the monitoring report for 2 quarters before being removed.


SUPERVISORY STRATEGIES FOR FDIC-SUPERVISED INSTITUTIONS
INVOLVED IN NTM PRODUCT ACTIVITIES

    Through its identification process, the FDIC determined that 30 of approximately 5,250
    FDIC-supervised institutions had significant involvement in NTM product activities. To
    determine the scope and magnitude of NTM product activities by these 30 institutions,
    the FDIC conducted on-site risk management examinations or visitations. On a
    continuing basis, the FDIC plans to identify and assess NTM product activities for all
    FDIC-supervised institutions through the examination process. These actions have
    provided a means to address the risks posed by NTM products to both the institutions and
    consumers.

    The Supervisory Guidance requires DSC regional directors to determine an appropriate
    supervisory strategy and examination frequency for institutions involved in NTM product
    activities. The Supervisory Guidance states that institutions with significant NTM
    product activities would have some type of on-site examination activity (such as an
    accelerated, traditional, point-in-time examination; targeted examination; or visitation).
    The guidance further states that other institutions will be monitored through examinations
    and scheduled off-site activities.

    We reviewed documentation related to DSC’s supervisory activities for the 30
    institutions identified as having significant involvement in NTM product activities.
    Specifically, we reviewed DSC supervisory plans, Reports of Examination (ROE),
    visitation reports, summaries of reviews or visitations, and supervisory tracking reports.
    In addition, we interviewed appropriate DSC regional office and field office staff. We
    found that DSC had conducted an on-site review for all 30 institutions by the end of
    September 2007 in the form of either a full scope examination or a visitation. During the
    on-site examinations and visitations, DSC regional and field office staff were able to
    document the levels of NTM product activities and risk to both institutions and
    consumers at each of the 30 institutions, as shown in Table 4 on the next page.



                                                  9
      Table 4: Results of On-site Reviews of the 30 Institutions
                              NTM Lending Risk            Problems with      No Longer
            Regional
                               Not Considered             NTM Lending        Conducting   Totals
             Office
                                 Significant                Identified      NTM Lending
        Atlanta                          5                        1              0          6
        Chicago                          2                        0              0          2
        Dallas                           2                        1              0          3
        Kansas City                      0                        0              0          0
        New York                        11                        0              2         13
        San Francisco                    4                        1              1          6
             Totals                     24                        3              3         30
      Source: OIG analysis of DSC’s on-site examinations and visitations.



      The on-site reviews of those institutions with significant NTM product activities provided
      DSC the means for addressing the risks posed by NTM products to both the institutions
      and consumers.


ON-SITE COVERAGE OF NTM GUIDANCE ON LOAN TERMS AND
UNDERWRITING STANDARDS

      For our sample of 15 of the 30 institutions with significant NTM product activities,
      DSC’s on-site risk management examinations or visitations covered the loan terms and
      underwriting standards set forth in the NTM Guidance. These standards also provide
      certain protections for consumers. Additionally, for another sample of seven institutions,
      whose NTM product activities fell below the DSC thresholds defined as significant, DSC
      examiners considered the extent of NTM activities in planning the risk management
      examinations and assessed selected activities and controls related to NTM products such
      as introductory rates, simultaneous second liens, and subprime borrowers. These
      examinations and visitations have assisted in identifying and mitigating the risks to
      institutions and consumers associated with NTM products.


NTM and Supervisory Guidance Related to Loan Terms and Underwriting Standards

      The NTM Guidance provides an overview of the loan underwriting standards, portfolio
      and risk management practices, and consumer protection issues that should be reviewed
      during the risk management and compliance examinations of institutions that offer NTM
      products or purchase them through subsidiaries or third parties. The NTM Guidance
      states that when an institution offers NTM products, underwriting standards should
      address the effect of a substantial payment increase on the borrower’s capacity to repay
      when loan amortization begins. The guidance also states that loan terms should be based
      on a disciplined analysis of potential exposures and compensating factors to ensure risk
      levels remain manageable.


                                                         10
     Additionally, DSC’s Supervisory Guidance states that, “. . . risk management and
     compliance examiners will scrutinize institutions’ underwriting standards and risk
     management and compliance management policies and practices to ensure that they
     adequately address the risk of these [NTM] products.” This guidance further states that
     examiners will identify, assess, and monitor institutions involved in NTM product
     activities through the normal supervisory process.


Examination Coverage for Institutions with Significant Involvement in NTM Product
Activities

     We sampled 15 of the 30 institutions identified as having significant NTM product
     activities. The 15 institutions had current 2007 risk management examinations or
     visitations and concentrations of payment option ARMs and/or interest-only loans. For
     those 15 institutions, we reviewed the 2007 ROEs and visitation reports to determine the
     extent of examiner coverage of the loan terms and underwriting standards of the NTM
     Guidance (see Appendix 3). With the exception of one institution, we found that
     examiners had generally addressed the loan terms and underwriting standards as required
     by the NTM Guidance. For the one institution, we found evidence that some aspects of
     the institution’s NTM lending activities had been addressed.

     For 8 of the 15 institutions, full scope, on-site risk management examinations had been
     conducted by the FDIC in 2007.14 As illustrated in Table 5, we found that the NTM
     Guidance was addressed in either the ROE or a supervisory activity that occurred shortly
     after the examination.

     Table 5: Examinations or Visitations that Addressed NTM Guidance
         No. of       ROE Addressed                          Relevant Supervisory Activity
      Institutions    NTM Guidance
            2             Yes              N/A
            2              No              Within 1 month of the completed examinations, the FDIC
                                           conducted on-site, targeted visitations that addressed the NTM
                                           Guidance.

           3                 No            Within 6 months of the examinations, the FDIC conducted on-
                                           site, targeted visitations that addressed the NTM Guidance.

           1                 No            This institution had no identified NTM lending problems. Seven
                                           months after the examination, the FDIC conducted an on-site
                                           targeted visitation that focused on the volume of NTM loans the
                                           institution was obligated to repurchase, due to early payment
                                           defaults for mortgages it sold to investors.
     Source: OIG Analysis.




     14
       Examinations for five of the eight institutions were conducted during January and February 2007 - only 3
     to 4 months after the issuance of the NTM Guidance.


                                                        11
      For the remaining seven institutions in our sample, targeted risk management visitations and, in
      some cases, compliance visitations, were conducted 10 to 11 months after issuance of the NTM
      Guidance and 5 to 6 months after issuance of the Supervisory Guidance, and the related
      visitation reports addressed the NTM Guidance.


Examination Coverage for Institutions Involved in NTM Product Activities That Fell
Below DSC Thresholds for Significant Involvement

      We sampled an additional seven FDIC-supervised institutions whose NTM product activities
      fell under the DSC thresholds defined as significant. We found that the examiners had
      considered the extent of NTM product activities in planning risk management examinations
      and assessed selected activities and controls related to NTM lending.

      From the initial 349 institutions identified as involved in NTM product activities, we
      determined that 74 institutions had NTM product lending activities that fell under the
      thresholds defined as significant and that a risk management examination or visitation had been
      conducted for the 74 institutions from March to October 2007. We selected 7 of these 74
      institutions for review.

      We reviewed the ROEs, pre-examination planning memoranda, and supervisory plans for our
      sample of seven institutions. Additionally, we interviewed Relationship Managers, Examiners-
      in-Charge, field supervisors, and examiners who participated in the asset reviews for these
      examinations and visitations. In some cases, DSC field office personnel provided us with
      additional documentation, such as Visitation Memoranda, mortgage banking examination
      documentation modules and summaries, NTM line sheets, and NTM summary memoranda,
      which we also reviewed. We found that the examiners:

          ¾ Targeted NTM product activities in examinations for three institutions.

          ¾ Conducted visitations for two institutions and made recommendations to improve the
            internal controls of the mortgage banking division in one institution—the mortgage
            banking division ceased its underwriting operations at the other institution.

          ¾ Focused on the mortgage banking activities of the subsidiary of one institution,
            including the review of recourse clauses in the agreements with investors because the
            limited NTM products originated by the institution’s subsidiary were sold in the
            secondary market.

          ¾ Determined that the only NTM product activities conducted by one institution were
            short-term, low-risk, interest-only mortgages, which did not have the risk
            characteristics outlined in the NTM guidance.

      By conducting on-site reviews of institutions’ NTM product activities, DSC has provided a
      means to identify and mitigate the risks associated with these products. Additionally, examiner




                                                  12
assessment of FDIC-supervised institutions’ implementation of the NTM Guidance has
assisted in determining whether the institutions are addressing these risks.


CORPORATION COMMENTS

On March 27, 2008, the Director, DSC, provided a written response to the draft report.
DSC’s response is provided in its entirety as Appendix 4 of this report. DSC stated that
the FDIC is focusing its attention on significant risks from economic conditions, the
fallout from recent unsustainable mortgage lending practices, and disruptions in the credit
and capital markets to ensure that FDIC-supervised institutions respond appropriately to
maintain their safety and soundness.




                                            13
                                                                                  APPENDIX 1
                        OBJECTIVES, SCOPE, AND METHODOLOGY


Objectives and Scope

      The audit objectives were to assess (1) the implementation of DSC’s March 2007
      Supervisory Guidance for Nontraditional Mortgage Products and (2) examination
      coverage of the loan terms and underwriting standards set forth in the October 2006
      Interagency Guidance on Nontraditional Mortgage Product Risks.

      For the scope of our audit, we reviewed the FDIC’s processes for identifying institutions
      involved in NTM product activities, developing supervisory strategies for FDIC-
      supervised institutions with significant NTM product activities, and conducting on-site
      reviews of those institutions.

      We conducted this performance audit from August 2007 through January 2008, in
      accordance with generally accepted government auditing standards. Those standards
      require that we plan and perform the audit to obtain sufficient, appropriate evidence to
      provide a reasonable basis for our findings and conclusions based on our audit objectives.
      We believe that the evidence obtained provides a reasonable basis for our findings and
      conclusions based on our audit objectives.


Methodology

      To obtain an understanding of DSC’s procedures for the identification of FDIC-
      supervised institutions involved in NTM product activities, we:

         ¾ Assessed the validity of and the process for establishing the criteria DSC used to
           identify institutions involved in NTM product activities as provided in DSC
           Transmittal No. 2007-008, entitled Supervisory Guidance for Nontraditional
           Mortgage Products, issued on March 14, 2007.

         ¾ Reviewed the process DSC regional office staff used to obtain data for the
           screening of applicable institutions and the DSC headquarters process to
           determine institutions with significant NTM product activities.

         ¾ Reviewed the process for selecting institutions to be included in the quarterly
           monitoring report.

         ¾ Identified the types of examiner instructions and training provided for coverage of
           NTM and subprime mortgage risks.

         ¾ Contacted appropriate DSC and FDIC Division of Insurance and Research
           officials in FDIC headquarters, regional, and field offices to obtain their
           perspectives on NTM product activities risk.

         ¾ Reviewed various tracking and monitoring reports prepared by DSC.



                                                  14
                                                                                                  APPENDIX 1


           ¾ Reviewed applicable prior audit reports issued by the FDIC Office of Inspector
             General and the Government Accountability Office (GAO).

      To obtain an understanding of the procedures for the determination of supervisory
      strategies for identified institutions, we:

           ¾ Contacted DSC regional office staff to determine the methods used to gather
             institution-specific data related to NTM and subprime mortgage lending.

           ¾ Reviewed supervisory strategies, ROEs, and summaries of visitations for the 30
             institutions identified by DSC with significant NTM product activities.

      To obtain an understanding of DSC’s coverage of NTM loan terms and underwriting
      standards during on-site risk management examinations and visitations, we contacted
      FDIC regional and field office staff and reviewed applicable examination and visitation
      documentation.

      Our audit conclusions are based on two non-statistical samples.15 The FDIC determined
      that 30 of approximately 5,250 FDIC-supervised institutions had significant involvement
      in NTM product activities. Our first sample consisted of 15 of those 30 institutions. We
      reviewed examination and visitation documentation to determine the FDIC’s coverage of
      loan terms and underwriting standards for NTM product activities at these institutions.

      The second sample consisted of 7 out of 74 FDIC-supervised institutions, whose NTM
      product activities fell below the thresholds defined as significant and for which a risk
      management examination or visitation had been conducted from March to October 2007.
      We reviewed the examination and visitation documentation for these seven institutions to
      determine the FDIC’s examination of loan terms and underwriting standards for NTM
      products.


Internal Control

      To assess the relevant control activities, we identified the processes related to identifying
      those FDIC-supervised institutions involved in NTM product activities and the FDIC’s
      implementation of supervisory strategies for those institutions. We reviewed DSC
      policies and procedures as presented in the FDIC’s Supervisory Guidance for
      Nontraditional Mortgage Products, issued in March 2007. We also reviewed the results
      of DSC Internal Control Reviews related to risk management and compliance
      examinations. DSC conducts internal control reviews under its Regional Office Review
      Program. The review program focuses on examinations and supervision, management,
      and administration and is structured in a checklist format. Each review covers either a
      24-month period or the period since the last review, whichever is less.


      15
         The results of a non-statistical sample cannot be projected to the intended population by standard
      statistical methods.


                                                           15
                                                                              APPENDIX 1


We identified and documented the following relevant internal controls:

   ¾ In October 2006, DSC distributed the NTM Guidance to assist financial
     institutions in managing the risks associated with underwriting NTM loan
     products. The guidance provides an overview of the loan underwriting standards,
     portfolio and risk management practices, and consumer protection issues that
     should be reviewed during the safety and soundness and compliance examinations
     of institutions that offer NTM products or purchase them through subsidiaries or
     third parties.

   ¾ DSC issued guidance for regional office staff and examiners to identify the risk
     exposure associated with NTM product activities at FDIC-supervised institutions.

   ¾ DSC required on-site reviews of institutions identified as having significant NTM
     product activities.

   ¾ The FDIC revised its quarterly monitoring report related to high-risk activities to
     include the risks related to NTM product activities in FDIC-supervised
     institutions and the impact of those activities on the mortgage-backed securities
     markets.


Reliance on Computer-processed Data. Our audit objective did not require that we
assess the reliability of computer-processed data, and we did not rely on computer-
processed data to support our significant findings and conclusions. Our assessment
centered on reviews of hardcopy ROEs, visitation reports, planning documents, and
on-site review summaries.

During the audit, we determined that the FDIC tracks the status of FDIC-supervised
institutions with significant NTM product activities. Regional office staff manually
update this information to reflect on-site visitation and examination reporting and
forward the information to FDIC headquarters. Additionally, Call Reports do not require
the reporting of NTM product activities data by FDIC-insured institutions and, as a result,
examinations serve as the primary source for this data. However, as of March 2007,
institutions are required to report negative amortization loans in their quarterly Call
Report submissions.

We reviewed the supervisory tracking data for the original list of 40 institutions identified
as having significant involvement in NTM product activities and found the information to
be generally reliable. Because of the limited sources of information available between
examinations, the FDIC generally does not track, on an off-site basis, the level of NTM
lending activity or the condition of NTM loan portfolios in FDIC-supervised institutions.


Performance Measurement. We reviewed annual performance plans and FDIC
strategic plans to identify goals, objectives, and results and determine whether the



                                             16
                                                                                   APPENDIX 1


      Corporation has (1) established quantifiable performance measures and (2) developed and
      analyzed data to assess program, project, or function performance related to its efforts to
      identify risk in institutions involved in NTM product activities. In fulfilling its primary
      supervisory responsibilities, the FDIC pursues two strategic goals: (1) FDIC-supervised
      institutions are safe and sound, and (2) consumers’ rights are protected and FDIC-
      supervised institutions invest in their communities. These strategic goals and objectives
      do not directly relate to NTM product activities.

      In its 2006 Annual Performance Plan, the FDIC has a strategic goal that FDIC-supervised
      institutions are safe and sound and a strategic objective that FDIC-supervised institutions
      appropriately manage risk. The plan also contains an annual performance goal to conduct
      on-site risk management examinations to assess the overall financial condition,
      management practices and policies, and compliance with applicable laws and regulations
      of FDIC-supervised depository institutions. Although these strategic goals and objectives
      do not directly relate to NTM product activities, the 2008 Strategic Priorities address,
      directly and indirectly, aspects of NTM product activities for risk identification purposes,
      as well as for consumer protection purposes.

      In addition, we reviewed the FDIC’s 2005-2010 Strategic Plan, 2007 Annual
      Performance Plan, 2008 Strategic Priorities, 2008 Corporate Performance Objectives, and
      2007 Annual Report.


Compliance With Laws and Regulations

      To assess compliance with NTM-related laws and regulations, we requested that the
      Counsel to the Inspector General review a list of laws and FDIC regulations to determine
      specific requirements that would apply to FDIC-supervised institutions, in general, and
      DSC examinations, in particular. In response, Counsel identified certain laws and
      regulations that could apply to some aspects of NTM product activities, including
      descriptions of the FDIC’s supervisory responsibilities, but these requirements were not
      directly related to our audit objectives. During the course of the audit, no instances of
      noncompliance come to our attention.

      We assessed the risk of fraud related to the audit objective in the course of evaluating
      audit evidence.


Prior Coverage

      In March 2003, we issued Audit Report No. 03-019 entitled, The Division of Supervision
      and Consumer Protection’s Examination Assessment of Subprime Lending. The
      objective of the audit was to determine whether DSC had taken reasonable steps to ensure
      that institutions: (1) managed risks associated with subprime lending programs
      effectively and priced loans based on risk, (2) established adequate allowance levels to
      cover losses, and (3) maintained capital levels that reflect the additional inherent risks
      associated with subprime lending. We conducted the audit because of concerns


                                                   17
                                                                                           APPENDIX 1


stemming from financial institution failures involving subprime lending activities. Due
to the disproportionate impact these institutions were having on losses to the deposit
insurance funds (at that time, there were two deposit insurance funds), the audit focused
on the implementation of examiner guidance for institutions with subprime lending
programs. As of June 30, 2002, 128 institutions were officially identified with subprime
lending programs, and 60 of those institutions were supervised by the FDIC. The audit
sampled 11 of those institutions, which were rated 3, 4, or 5, and found that FDIC
examiners generally adhered to applicable guidance.

In September 2006, the GAO issued Report No. GAO-06-1021 entitled, Alternative
Mortgage Products’ Impact on Defaults Remains Unclear, but Disclosure of Risks to
Borrowers Could Be Improved. The objective of the audit was to study the potential risks
of alternative mortgage products for borrowers and lenders. The report discusses
(1) recent trends in the alternative mortgage product market, (2) the impact of alternative
mortgage products on borrowers and on the safety and soundness of financial institutions,
(3) the extent to which mortgage disclosures discuss the risks of alternative mortgage
products, (4) the federal regulatory response to the risks of alternative mortgage products
for lenders and borrowers, and (5) selected state regulatory responses to the risks of
alternative mortgage products for lenders and borrowers. GAO concluded that because
alternative mortgage product borrowers can defer repayment of principal, and sometimes
part of the interest, for several years, they may eventually face payment increases large
enough to cause “payment shock.”16 As a result, delinquencies and defaults could rise.

According to GAO, officials from the federal banking regulators stated that most
institutions appeared to be managing their credit risk by diversifying their portfolios or
through loan sales or securitizations. However, because the monthly payments for most
alternative mortgage products that were originated between 2003 and 2005 have not reset
to cover both interest and principal, GAO reported that it was too soon to tell the extent to
which payment shock would result in increased delinquencies or foreclosures for
borrowers and in losses for institutions and other lenders. GAO also reported that
regulators and others are concerned that borrowers may not be well informed about the
risks of alternative mortgage products, due to their complexity and because promotional
materials by some lenders and brokers do not provide balanced information on alternative
mortgage product benefits and risks.

Additionally, the federal standards on disclosures do not currently require specific
information on alternative mortgage products that could better help borrowers understand
key terms and risks. According to GAO, in December 2005, the federal banking
regulators issued draft interagency guidance on alternative mortgage product lending that
discussed prudent underwriting, portfolio and risk management, and consumer disclosure
practices. State regulators contacted by GAO generally relied on the existing regulatory
structure of licensing and examining independent mortgage lenders and brokers to

16
  A borrower may experience “payment shock” due to a significant increase in the amount of the monthly
payment on a mortgage product when the interest rate adjusts to a fully indexed rate. NTM products that
do not have payment caps or periodic interest rate caps, or that contain very high caps, can result in much
higher payments under the fully indexed rate.


                                                     18
                                                                        APPENDIX 1


oversee alternative mortgage product lending. GAO recommended that during its review
of existing disclosure standards, the Board of Governors of the Federal Reserve (FRB)
consider revising federal requirements for mortgage disclosures to improve the clarity
and comprehensiveness of alternative mortgage product disclosures. In response, the
FRB noted that it will conduct consumer testing to determine appropriate content and
formats and will use design consultants to develop model disclosure forms intended to
better communicate this information.




                                          19
                                                                                                  APPENDIX 2
                             FEATURES AND TYPES OF NTM PRODUCTS


Features of Nontraditional Mortgage Products

       NTMs have some combination of variable interest rates, low down payments, interest-
       only periods, and/or negative amortization. Borrowers have increasingly chosen one or
       more of the following features.

       ¾ Adjustable Rates: There are many varieties of ARMs. One of the simplest ARMs
         offers an initial low rate, called a teaser rate, at the beginning of the loan which then
         resets after an introductory period. The teaser rate may apply for 2 to 3 years or for
         as little as 1 month. The mortgage contract may specify a reset interest rate or may
         tie the rate to another interest rate by a formula. The resulting interest rate may be
         fixed or variable. Adjustable rate mortgages can be tied to a variety of market interest
         rates. One common reference rate is the London Interbank Offered Rate (LIBOR).17

       ¾ Low or Zero Down Payment: Lending programs have gradually reduced the required
         down payment options to 10, 5, 3, and 0 percent of the purchase price, allowing
         buyers to purchase with no money down. Some programs even roll in closing and
         other acquisition costs for greater-than-100 percent financing. A related practice is
         using a second mortgage to finance the down payment. Sometimes called
         “piggyback” loans, or silent seconds, the home buyer uses the second loan to borrow
         the funds for a 20-percent down payment, which is enough to improve the interest
         rate and other terms of the first mortgage. However, the second mortgage carries a
         higher interest rate and other less desirable features because the first mortgage has
         prior claim on the collateral.

       ¾ Interest Only: An interest-only mortgage allows the home buyer to carry the loan
         balance for a period of time without having to pay back any principal. The current
         mortgage payment covers only the monthly interest due on the existing balance.
         Eventually, the monthly payment must also cover the principal. If the duration of the
         mortgage is not extended, then the payments will have to amortize the remaining
         balance over a shorter period of time. Therefore, a homeowner choosing to pay only
         the interest for a few months or 2-3 years increases the later monthly payments.

       ¾ Negative Amortization: Unlike interest-only mortgages, which leave the loan balance
         unchanged, a mortgage with negative amortization allows the borrower to increase
         the loan’s principal by paying less than the current interest due. The remaining
         interest is added to the loan balance. Future payments are then recalculated based on
         the increased principal. The homeowner gets lower current payments but at the cost
         of greater debt and higher future payments.



       17
         LIBOR rates are determined in the London market for unsecured institution loans. It is a rate that
       institutions charge each other for short-term loans (less than 12 months). Typical ARMs will specify a
       reset date at which time the mortgage rate will adjust to the LIBOR, or similar rate, and a predetermined
       markup.


                                                            20
                                                                                    APPENDIX 2


Types of Nontraditional Mortgage Products

       Interest-only ARMs, payment-option ARMs, interest-only fixed rate mortgages, and
       extended-term mortgages are four popular types of NTM products offered by lenders.

       ¾ Interest-only ARMs allow borrowers to defer principal payments for typically the
         first 2-3 years, before resetting to higher monthly payments that cover principal as
         well as interest, to pay off the outstanding balance over the remaining term of the
         loan. Hybrids of the interest-only ARMs include “2/28” and “3/27” loans that
         provide borrowers with a fixed rate of interest for 2-3 years that adjusts to a variable
         rate of interest for the remaining 27-28 years.

       ¾ Payment-option ARMS allow borrowers to make minimum payments that do not
         cover principal or all accrued interest. Typically, four payment options are offered:
         (1) fully amortized payments on a 30-year amortization schedule, (2) fully amortized
         payments on a 15-year amortization, (3) interest-only payments, and (4) minimum
         payments that do not cover all of the interest. Any interest that does not get paid is
         capitalized into the loan balance owed, resulting in an increase in the loan balance
         through negative amortization. Typically after 5 years, or if the loan balance
         increases (due to negative amortization) to a cap specified in the mortgage terms,
         payments reset to include an amount that will fully amortize the outstanding balance
         over the remaining years of the loan.

       ¾ Interest-only fixed rate mortgages offer borrowers interest-only payments for up to 10
         years but at a fixed rate over the life of the loan.

       ¾ The 40-year mortgage offers borrowers lower monthly payments of principal and
         interest that amortize over 40 years. After 10 years, the loan is reset to require higher
         monthly payments that fully amortize over the remainder of the 30-year term.
         Another option is the standard 30-year mortgage loan with lower fixed monthly
         payments based on a 40-year amortization schedule for a part of or the entire loan. In
         this case, the borrower may be required to make a balloon payment at the end of the
         30-year term to pay off the remaining loan balance.

       According to FDIC officials, a payment-option ARM is the riskiest NTM product
       because it is more complex and has the potential for negative amortization and bigger
       payment shock.


Risk Associated with Nontraditional Mortgage Products

       If not adequately managed, NTM products can present substantial risks to both borrowers
       and lenders. These risks are increased if borrowers are not adequately informed of the
       product features and risks, including their responsibility for paying real estate taxes and
       insurance, which may be separate from their monthly mortgage payments.




                                                   21
                                                                            APPENDIX 2


Potential risks to borrowers:

   ¾ Borrowers may not be well informed about the risks of NTM products due to their
     complexity and the lack of balanced information on the benefits and risks of NTM
     products in lenders’ promotional materials.

   ¾ Borrowers may face payment shock (discussed earlier) when loans reset because
     borrowers can initially defer repayment of principal, and sometimes part of the
     interest (negative amortization), for several years.

   ¾ Borrowers can reach a negative amortization cap well before the expiration of the
     multi-year payment option period, triggering (1) the loan to reset to fully
     amortizing payments, (2) the need to refinance, and (3) the imposition of
     prepayment penalties.

   ¾ Borrowers may have difficulty in refinancing or selling homes, particularly if
     interest rates have risen and home values have declined, or if their home equity
     fell because only minimum monthly payments had been made that did not fully
     cover current interest costs.

Potential risks to lenders:

   ¾ Lenders may be qualifying borrowers under low or no documentation standards,
     which allow for less detailed or no proof of income or assets.

   ¾ Lenders have allowed borrowers with limited or no down payments to finance a
     down payment through second mortgages, or “piggyback” mortgages. A typical
     “piggyback” mortgage usually includes a second mortgage or home equity line of
     credit for part or all of the remaining 20 percent of the property value. The first
     mortgage would cover 80 percent. Typically, this is done to avoid private
     mortgage insurance.

In both of these scenarios, lenders are at risk because borrowers may not be able to afford
the minimum payments, leading to increasing rates of delinquencies and defaults.

In addition, mortgage delinquency and default rates are typically higher for borrowers
who purchased investment properties compared with borrowers who purchased primary
residences. Borrowers who purchased investment properties may have less incentive to
pay their mortgages when faced with payment shock or difficulties in refinancing or
selling such properties. According to the FDIC, this is of particular concern when the
borrower has made little or no down payment.




                                            22
                                                                                                                                        APPENDIX 3
                       COVERAGE OF NTM GUIDANCE IN 2007 DSC EXAMINATIONS AND VISITATIONS


                             Type of NTM Product                                           ROE Generally                                 Visitation(s)
         Institution                                          Exams Conducted After        Covered NTM              2007 NTM          Generally Covered
          Number       Payment     Interest     Subprime    NTM Guidelines Were Issued       Guidance         Visitations Conducted    NTM Guidance
                        Option      Only                                                   Requirements                                 Requirements
                        ARMs
    Institution 1                     X             X                 1/16/07*                  No*                  8/17/07                Noa

    Institution 2        X            X             X                 1/22/07*                  No*              8/24/07; 8/28/07           Yes
    Institution 3        X            X             X                 1/29/07*                  No*                  8/22/07                Yes
    Institution 4        X            X             X                 2/20/07*                  Yes*             8/23/07 2/26/07            Yes
    Institution 5                     X                               2/26/07*                  No*              8/20/07; 8/17/07           Yes
    Institution 6        X                                            7/23/07                   Yes                   None                  N/A
    Institution 7                     X             X                 8/20/07                   Nob                  9/11/07                Yes
    Institution 8                     X                               9/24/07                   Noc                  8/27/07                Yes
    Institution 9                     X                        FDIC Exam in Process +           N/A                  8/31/07                Yes
    Institution 10                    X             X          Joint Exam in Process +          N/A                  8/20/07                Yes
    Institution 11                    X                        Joint Exam in Process +          N/A                  8/31/07                Yes
    Institution 12                    X                           2007 State Exam               N/Ad                 8/29/07                Yes
    Institution 13                    X                           2007 State Exam               N/Ad                 8/29/07                Yes
    Institution 14                    X                           2007 State Exam               N/Ad                 8/20/07                Yes
    Institution 15                    X                           2007 State Exam               N/Ad             8/27/07; 8/31/07           Yes
a
  Visitation provided minimal coverage of the NTM Guidance requirements.
b
  Examination was conducted 1 month before the visitation; the visitation generally covered the NTM Guidance requirements.
c
  Examination was conducted 1 month after the visitation; the visitation generally covered the NTM Guidance requirements.
d
  This audit did not review state examination coverage of NTM lending.
* The examination predates DSC’s Supervisory Guidance for Nontraditional Mortgage Products, Transmittal No. 2007-008, issued on March 14, 2007.
+ As of January 31, 2008.




                                                                           23
